<html>
<title> - A NEW HORIZON IN U.S.-ISRAEL RELATIONS: FROM AN AMERICAN EMBASSY IN JERUSALEM TO POTENTIAL RECOGNITION OF ISRAELI SOVEREIGNTY OVER THE GOLAN HEIGHTS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]







  A NEW HORIZON IN U.S.	ISRAEL RELATIONS: FROM AN AMERICAN EMBASSY IN 
             JERUSALEM TO POTENTIAL RECOGNITION OF ISRAELI
                   SOVEREIGNTY OVER THE GOLAN HEIGHTS

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON NATIONAL SECURITY

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 17, 2018

                               __________

                           Serial No. 115-97

                               __________

Printed for the use of the Committee on Oversight and Government Reform





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







        Available via the World Wide Web: http://www.govinfo.gov
                       http://oversight.house.gov
                                   ______
		 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
31-423 PDF                WASHINGTON : 2018                 





















              Committee on Oversight and Government Reform

                  Trey Gowdy, South Carolina, Chairman
John J. Duncan, Jr., Tennessee       Elijah E. Cummings, Maryland, 
Darrell E. Issa, California              Ranking Minority Member
Jim Jordan, Ohio                     Carolyn B. Maloney, New York
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Justin Amash, Michigan                   Columbia
Paul A. Gosar, Arizona               Wm. Lacy Clay, Missouri
Scott DesJarlais, Tennessee          Stephen F. Lynch, Massachusetts
Virginia Foxx, North Carolina        Jim Cooper, Tennessee
Thomas Massie, Kentucky              Gerald E. Connolly, Virginia
Mark Meadows, North Carolina         Robin L. Kelly, Illinois
Ron DeSantis, Florida                Brenda L. Lawrence, Michigan
Dennis A. Ross, Florida              Bonnie Watson Coleman, New Jersey
Mark Walker, North Carolina          Raja Krishnamoorthi, Illinois
Rod Blum, Iowa                       Jamie Raskin, Maryland
Jody B. Hice, Georgia                Jimmy Gomez, Maryland
Steve Russell, Oklahoma              Peter Welch, Vermont
Glenn Grothman, Wisconsin            Matt Cartwright, Pennsylvania
Will Hurd, Texas                     Mark DeSaulnier, California
Gary J. Palmer, Alabama              Stacey E. Plaskett, Virgin Islands
James Comer, Kentucky                John P. Sarbanes, Maryland
Paul Mitchell, Michigan
Greg Gianforte, Montana
Michael Cloud, Texas

                     Sheria Clarke, Staff Director
                    William McKenna, General Counsel
                Samuel Wisch, Professional Staff Member
     Sharon Eshelman, National Security Subcommittee Staff Director
                    Sharon Casey, Deputy Chief Clerk
                 David Rapallo, Minority Staff Director
                                 ------                                

                   Subcommittee on National Security

                    Ron DeSantis, Florida, Chairman
Steve Russell, Oklahoma, Vice Chair  Stephen F. Lynch, Massachusetts, 
John J. Duncan, Jr., Tennessee           Ranking Minority Member
Justin Amash, Michigan               Peter Welch, Vermont
Paul A. Gosar, Arizona               Mark DeSaulnier, California
Virginia Foxx, North Carolina        Jimmy Gomez, California
Jody B. Hice, Georgia                Vacancy
James Comer, Kentucky                Vacancy
                                     Vacancy


























                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 17, 2018....................................     1

                               WITNESSES

Michael Doran, Ph.D., Senior Fellow, Hudson Institute
    Oral Statement...............................................     5
    Written Statement............................................     8
Ambassador Dore Gold, Ph.D,. President, Jerusalem Center for 
  Public Affairs
    Oral Statement...............................................    18
    Written Statement............................................    20
Eugene Kontorovich, Professor, Northwestern University, Pritzker 
  School of Law
    Oral Statement...............................................    29
    Written Statement............................................    31
Ambassador Daniel Kurtzer, Ph.D., S. Daniel Abraham Professor in 
  Middle Eastern Policy Studies, Woodrow Wilson School of Public 
  and International Affairs, Princeton University
    Oral Statement...............................................    37
    Written Statement............................................    39
Mr. Morton Klein, President, Zionist Organization of America
    Oral Statement...............................................    45
    Written Statement............................................    48

 
  A NEW HORIZON IN U.S.-ISRAEL RELATIONS: FROM AN AMERICAN EMBASSY IN 
  JERUSALEM TO POTENTIAL RECOGNITION OF ISRAELI SOVEREIGNTY OVER THE 
                             GOLAN HEIGHTS

                              ----------                              


                         Tuesday, July 17, 2018

                   House of Representatives
                  Subcommittee on National Security
               Committee on Oversight and Government Reform
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 2154, Rayburn Office Building, Hon. Ron DeSantis [chairman 
of the subcommittee] presiding.
    Present: Representatives DeSantis, Hice, Lynch, and Welch.
    Also present: Representatives Grothman, Perry, and Lamborn.
    Mr. DeSantis. The Subcommittee on National Security will 
come to order.
    Without objection, the chair is authorized to declare a 
recess at any time.
    Today's hearing on recognizing Israel's sovereignty over 
the Golan Heights comes at the dawn of a new horizon in U.S.-
Israel relations. The Trump administration has proven to be a 
staunchly pro-Israel administration. President Trump took the 
long overdue steps of recognizing Jerusalem as Israel's capital 
in opening the U.S. embassy in Israel there this past May. Many 
Presidents had promised to move the embassy, but it was 
President Trump who kept his promise and delivered. And I would 
admit that this committee was actively involved in that. We 
actually have some people who helped testify right before the 
decision, which I think was very important. So thank you.
    The President withdrew from the Iran deal that paved the 
way for Iran to acquire a nuclear weapon and provided huge 
amounts of money in sanctions relief and $1.7 billion in cold, 
hard cash.
    He pulled the U.S. out of the anti-Israel U.N. Human Rights 
Council where the world's worst human rights violators 
routinely vilify the world's only Jewish state.
    He signed the Taylor Force Act into law, holding the 
Palestinian Authority accountable for its cash payments to 
terrorists.
    And he appointed a truly outstanding Ambassador to Israel, 
my friend, David Friedman.
    The President now has the opportunity to take another major 
step to advance American interests and to fortify the U.S.-
Israel relationship by recognizing Israeli sovereignty over the 
Golan Heights. The Golan Heights is essential to Israel's 
security. A strategic high ground along Israel's borders with 
Syria and Lebanon, the Golan's topography grants Israel with 
observation and intelligence capabilities that allow it to 
detect enemy activities. It also offers incredible defensive 
advantages in repelling an attack. It allows Israel to defend 
critical segments of territory like the Sea of Galilee and 
Haifa Bay. It serves as a major water source and is a growing 
population center.
    The importance of the Golan is illustrated by Major General 
Giora Eiland, the former head of Israel's National Security 
Council who wrote that, quote, ``Israel does not possess a 
plausible solution to its security needs without the Golan 
Heights.'' End quote.
    Israel's need for the Golan Heights is clearer than ever, 
given the threats it currently faces on its northern border. 
Iran has escalated its aggression against the Jewish state to 
unprecedented levels in recent months, launching direct attacks 
on Israel from Syria. In May, Iranian forces in Syria fired 
approximately 20 rockets at Israeli military positions in the 
Golan Heights. In February, Iran sent an armed drone into 
Israeli airspace. Iran has also equipped its terrorist proxy 
Hezbollah with advanced weapons, including over 100,000 rockets 
and missiles aimed at Israel. And amidst the chaos of Syria's 
civil war, terrorist groups, including ISIS, have gained 
footholds along the Syria border with Israel.
    We can only imagine how much worse the threats to Israel's 
north would be and threats to the security of the broader 
region would be if the Golan was in the hands of what remains 
of the Syrian regime or Iran or Hezbollah or ISIS. It would 
leave Israel's enemies in control of that high ground and 
stationed even closer to Israel's heartland.
    Now, this past weekend, we saw Hamas launch nearly 200 
rockets at Israel, a stark reminder of the consequences of 
Israel's withdrawal from Gaza. Hamas' latest attack 
demonstrates why it is so important that Israel keep the Golan 
Heights.
    In Syria, Bashar al-Assad's government has launched a 
ruthless campaign to retake the country south backed by Iran 
and Russia. The Syrian dictator has slaughtered his own people 
in his desperate bid to cling to power. Countries, including 
the United States, Britain, France, Germany, and Canada, as 
well as the U.N., have all made clear that the Assad regime has 
no legitimacy. The U.S. should push back against Assad and Iran 
and Russia's expanding influence. President Trump's action in 
ordering air strikes made clear that Syria's use of chemical 
weapons would not be tolerated. The President can further U.S. 
national security interests and send Assad, Iran, and Russia 
another strong message with the stroke of a pen by recognizing 
Israel's sovereignty over the Golan.
    Recognizing this claim is also the right thing to do. 
Israel won the Golan in a defensive war in 1967. It repelled 
another Syrian attack there in 1973. In 1981, with the passage 
of the Golan Heights law, Israel permanently integrated the 
area as part of its country, and today the Golan flourishes as 
a growing center of agriculture, industry, tourism, and 
wineries.
    But other nations have yet to recognize Israel's 
sovereignty over the Golan despite the fact that its 
acquisition of the area in a defensive war was consistent with 
principles of international law. And it is clear that without 
the Golan, Israel would not have secure and recognized 
boundaries free of threats or acts of force, as U.N. Security 
Council resolution 242 calls for. By recognizing the Golan as 
part of Israel, the U.S. would send a clear message that Syrian 
belligerents will not be rewarded and that Israel's victory 
over its aggressor has consequences.
    As Prime Minister Netanyahu said, the time has come, after 
50 years, for the international community to acknowledge that 
the Golan Heights will permanently remain under Israeli 
sovereignty and that whatever happens on the other side of the 
border, that line is not going to change.
    The case for recognition now is clear. Such a move would 
bolster Israel against the threats on its northern border and 
repudiate the Assad regime's butchery and Russia and Iran's 
designs in Syria. It would recognize the reality that Golan 
Heights is part of Israel and is vital to its national 
security. With the current state of Syria, the prospect of 
peace negotiations is nonexistent, but the current danger 
Israel faces from Iran, Hezbollah, and other terrorist groups 
like ISIS makes clear that given the instability in the Middle 
East, Israel could not afford to give up the Golan under any 
circumstances. Israel's security should be non-negotiable and 
so should America's commitment to it. It is time to stand with 
our ally on the Golan and against these common enemies. This is 
a policy that the President should implement and that all 
Members of Congress should support.
    And I would note that we do have a great panel of witnesses 
here to discuss this issue. So I want to thank all the 
witnesses for coming and providing their views. Just think how 
crazy it would be to say that Israel should give the Golan to 
Assad or some of these proxies. It would be absolute madness. 
So let us discuss this issue today.
    And before we hear from our witnesses, I would like to 
recognize the ranking member, Mr. Lynch, for his opening 
statement.
    Mr. Lynch. Thank you, Mr. Chairman.
    I would also like to thank this esteemed panel of 
witnesses. Most of you are frequent flyers to this committee, 
and we appreciate your advice and words of wisdom.
    During my time here in this Congress, especially in my role 
as ranking member on the Subcommittee on National Security, I 
have labored mightily to maintain the proper decorum, sense of 
decorum, and chosen my words carefully to avoid vitriol and the 
harmful rhetoric that sometimes infuses the arguments of the 
extremes of each of the parties. I have done so in the hope of 
providing an open channel across the aisle for the meaningful 
and thoughtful dialogue to take place that is necessary to move 
this country forward.
    This morning I am compelled by that same sense of decency 
and concern for our national security to briefly comment on the 
President's remarks in Helsinki yesterday.
    Yesterday for me was a moment of national embarrassment. 
And I feel the President's words and positions taken constitute 
a physical injury upon the national security of this country.
    I only have two recommendations, quite briefly.
    One is to reassure the men and women who serve this country 
in our intelligence agencies continue to do the work necessary 
to keep our country safe. We value--we value--the work that is 
being done by our national intelligence agencies. We want them 
to continue that work.
    The second recommendation I have is a return to fact-based 
decision-making in this country. Push back on the ideology and 
the rhetoric that comes from the extreme ends of each party. 
Look at the facts and the intelligence that our hardworking, 
brave women and men in the intelligence agency bring us. A 
return to fact-based decision-making will help this country, 
will make us stronger.
    In regards to the matter before us on the Golan, it is a, I 
suppose not unusually, very, very tumultuous time in the 
region. And we should make sure that whatever actions we take 
enhance the national security of Israel and the United States 
and our allies. Again, a return to fact-based decision-making 
based on the facts on the ground in and around the Golan.
    Now, Mr. Issa from this committee and I spent a week, maybe 
10 days, in the Middle East a couple of weeks ago meeting with 
Prime Minister Netanyahu, King Abdullah, meeting with 
leadership in Bahrain, with President el-Sisi in Egypt to talk 
about this confluence of events and the instability that has 
been brought about by the collapse of ISIS, the presence of 
numerous militia, so-called rebels, in Syria, the advancements 
being made by Bashar al Assad and his troops supported by 
Hezbollah, and the presence of Iranian militia in an area so 
close to Israel.
    There has been an armistice or truce in place around the 
Golan since 1974, and we must be sure that any steps we take as 
a party to annex the Golan officially at this moment does not 
precipitate something that is inimical and harmful to the 
national security of Israel and of our allies in the region, 
including of course our own country.
    So I think it is a time again to return to fact-based 
decision-making with careful, careful consideration to the 
facts on the ground in that area. But I think it is a 
worthwhile discussion, and I am eager to hear from our 
witnesses.
    Again, I thank the chairman for holding this hearing.
    And I yield back the balance of my time.
    Mr. DeSantis. The gentleman yields back.
    I am pleased to introduce our witnesses. We have Dr. 
Michael Doran, Senior Fellow at the Hudson Institute; 
Ambassador Dore Gold, President of the Jerusalem Center for 
Public Affairs; Professor Eugene Kontorovich, Northwestern 
University School of Law; Ambassador Daniel Kurtzer, the S. 
Daniel Abraham Professor in Middle Eastern Policy Studies at 
the Woodrow Wilson School of Public and International Affairs 
at Princeton University; and Mort Klein, President of the 
Zionist Organization of America. Welcome to you all.
    Pursuant to committee rules, all witnesses will be sworn in 
before they testify. So if you can please stand and raise your 
right hand.
    [Witnesses sworn.]
    Mr. DeSantis. Please be seated.
    All witnesses answered in the affirmative.
    In order to allow time for discussion, please limit your 
testimony to 5 minutes. Your entire written statement will be 
made part of the record. As a reminder, the clock in front of 
you shows the remaining time during your opening statement. The 
light will turn yellow when you have 30 seconds left and red 
when your time is up.
    Please also remember to press the button to turn your 
microphone on before speaking.
    With that, we will recognize Dr. Doran for 5 minutes.

                       WITNESS STATEMENTS

                   STATEMENT OF MICHAEL DORAN

    Mr. Doran. Chairman DeSantis, Ranking Member Lynch, and 
distinguished members of the subcommittee, thank you for having 
me speak today. It is an honor to appear before you on such a 
consequential issue in our national security.
    Mr. Chairman, the question of the Golan is part of a larger 
strategic problem. The Syria that will emerge from this 
devastating civil war will look nothing like the one we knew in 
2011 when it began.
    This simple fact raises a big question. What is the Syria 
that we would like to see emerge from this conflict? What is 
the Syria that will best contribute to international peace and 
stability?
    That question is too big to answer here today, but we can 
tackle one piece of it. This war should lead to the United 
States recognizing Israeli sovereignty over the Golan Heights. 
Anyone truly concerned with international peace and security 
must conclude that this change is in the best interest of 
everyone, with the exception of the Iranian regime and its 
allies. And it is manifestly in the interest of the United 
States.
    In my written testimony, I gave six reasons why this is the 
case. Here I will summarize just four of them.
    First of all, it passes the test of the laboratory of real 
life. The last 70 years constitute the laboratory of real life, 
and its results are incontrovertible. When in the hands of 
Syria, the Golan Heights promoted conflict. When in the hands 
of Israel, they have promoted stability.
    Before the 1990s, the Syrian Government refused to talk to 
Israel. Since the 1990s, it has unwaveringly demanded that 
Israel must withdraw to the line of 4 June 1967. This line 
would place the Syrians once again on the shores of the Sea of 
Galilee, and it would place them atop the Golan Heights peering 
down at Israeli villages below. It would create a wedge of 
Syrian territory between Israel and Jordan to the south of the 
Sea of Galilee.
    The practical choice before us, therefore, is whether to 
support the permanent acquisition of the Golan Heights by 
Israel or to continue to whet the appetite of the Syrian regime 
for the acquisition of that territory.
    Between 1949 and 1967, literally thousands of clashes 
erupted between the two sides. By contrast, ever since Israel 
took control of the Golan Heights in June 1967, they have 
served as a natural geographic buffer between the two 
belligerents. The American interest, the interest of peace and 
security more generally, militates in favor of it remaining in 
Israeli hands.
    The second reason, containing Iran. From the outbreak of 
the civil war, Iran and Russia have worked aggressively and 
brutally to shape a new Syria that will serve their interests. 
The influence of Iran is particularly worrisome because, in the 
division of labor between Moscow and Tehran, Iran provides much 
of the ground forces. If Israel were to withdraw from the Golan 
Heights, Iranian forces would replace them.
    Mr. Chairman, ask yourself a few simple questions. Would 
any responsible American statesman ever choose to place Iranian 
soldiers on the Golan Heights so that they could peer down 
through their rifle scopes at Jewish civilians below? Is there 
any American interest that would be served by allowing Iran to 
have direct access to the Sea of Galilee, Israel's primary 
water reservoir? Would it ever be wise to place Iranian troops 
on the southern shores of the sea where its territory would 
serve as a wedge between Jordan and Israel?
    The answer to all of those questions, obviously, is no.
    The third reason, the inherent instability of Syria.
    The risk of returning the Golan Heights to Syria is not 
simply a function of the current geopolitical alignment of the 
Assad regime. It is difficult to imagine at this moment, but it 
is not impossible that in the future a pro-American regime 
could emerge in Damascus and seek peace with Israel. Even then, 
however, it would still be too risky to return the Golan 
because Syria by its nature is inherently unstable. The 
conflict we are witnessing today is but the latest and the 
worst episode in a history of political chaos that has 
afflicted the country since its independence. Even if a regime 
favorable to the United States were to one day emerge in 
Damascus, we could never count on it to survive. The laboratory 
of real life teaches us that if we want the Golan Heights to 
serve as a reliable buffer between Syria and Israel and between 
Syria and Jordan, we must leave them in the hands of the 
Israelis.
    Lastly, aligning diplomacy with reality. We must recognize 
a simple fact: Israel is never going to withdraw from the 
territory. And for very good reason.
    Not recognizing this reality is diplomatic malpractice. 
Failing to recognize obvious truths is bad for nations in the 
same way that it is bad for individuals. It creates delusions 
that take increasing amounts of psychological and material 
resources to sustain.
    Pretending that it is still 1973 and that we recognize a 
Syrian claim to the entire Golan, when in reality we do not, is 
not simply a diplomatic nicety. It is a formal invitation to 
the very real Iranian army in Syria and the very real Iranian 
Hezbollah proxy to continue a campaign of low intensity warfare 
to reclaim the occupied Golan.
    Whose interest is served by the United States adopting 
stances that lend credence to the claims of Iran and Hezbollah, 
to the claim that Israel is occupying Syrian land? Certainly 
not the American interest. Certainly not Israel's or Jordan's. 
And it is not in the interest of the Syrian people themselves 
who benefit from the stability that the Golan buffer provides. 
Refusing to recognize reality serves only the interests of 
Iran, Hezbollah, and Bashar al Assad. Why should the United 
States expend very real political capital to help those hostile 
entities improve their strategic position against the United 
States and its allies?
    In sum, recognizing reality will deny oxygen to our enemies 
and strengthen our allies, precisely what a sound foreign 
policy should seek to achieve.
    Thank you once again. It has been a great honor to address 
you.
    [Prepared statement of Mr. Doran follows:]
    
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    Mr. DeSantis. Thank you.
    Ambassador, 5 minutes.

               STATEMENT OF AMBASSADOR DORE GOLD

    Ambassador Gold. Mr. Chairman, thank you for convening 
today's hearing. Mr. Lynch, thank you as well.
    A discussion about the Golan Heights today might seem 
baffling. Increasingly in recent years, many Israelis have 
expressed a huge sigh of relief that previous rounds of 
Israeli-Syrian negotiations did not result in an Israeli 
withdrawal from the Golan Heights. It basically did not go 
anywhere. These Israelis imagine that had these earlier talks 
been concluded on Syrian terms, that in 2011, with the outbreak 
of the Syrian civil war, the forces of Jabhat al Nusra, 
Da'ish--that is, ISIS--not to mention Assad's own ruthless army 
would have been sitting along the coastline of the see of 
Galilee with their weapons aimed at the City of Tiberius across 
the lake.
    What has changed today is that with the imminent victory of 
the forces of Bashar al Assad in the sector of South Syria, new 
diplomatic initiatives by outside actors cannot be ruled out. 
Already in March 2016, the U.N.'s Special Envoy on Syria, 
Staffan de Mistura, proposed a paper called ``Essential 
Principles of a Political Solution in Syria.'' The first point 
of his 12-point paper specifically called for, quote, ``the 
restoration of the occupied Golan Heights,'' unquote, to Syria. 
This past February at the Valdai Conference in Moscow, which I 
attended and I spoke at, Vitaly Naumkin, the leading Russian 
authority on Syria insisted that Israeli sovereignty over the 
Golan Heights could not be accepted. He raised doubts about its 
very legality.
    What has changed today is that with the imminent victory of 
the forces of President Assad, these types of voices will 
increasingly be heard. Traditionally the Golan Heights has been 
the front line for Israel's defense in the north. Israel faced 
acute asymmetry in active duty forces against Syria. This meant 
that in 1973, Israel had to withstand an attack by 1,400 Syrian 
tanks with only 177 tanks on its side. Israel planned on a 
strategic line of volcanic hills, known in Hebrew as Kav Ha-
Tilim, that helped it to withstand any Syrian assault until 
Israel's reserve mobilization was complete.
    What are Israel's potential sources of concern that make 
the Golan critical for Israel's security today?
    First, given the proclivity of Middle Eastern regimes to 
spend their resources on military acquisitions, the eventual 
recovery of the Syrian army must be anticipated despite its 
current weaknesses. In light of Russia's role in saving the 
Assad regime, massive Russian arms transfers to the Syrian 
armed forces will likely provide the basis for the renewal of 
Syrian military power.
    But there is a second source of concern for Israel. Iran's 
conversion of Syria into a satellite state that will host 
Iranian forces and bases.
    In addition, Tehran has been creating Shiite proxy militias 
modeled on the basis of Lebanese Hezbollah using manpower from 
a number of countries, including Lebanon, Iraq, Yemen, 
Pakistan, to take up positions in Syrian bases. The Iranians 
have deployed elements from the Fatemyoun Division, which is 
made up of Afghan Shiite refugees. As reported as recently as 
July 11th, Hezbollah and Iran-handled Shiite militias are 
integrated into the Syrian army in its campaign to take control 
of south Syria.
    Iran founded a Syrian branch of Hezbollah in 2014. A year 
earlier, the commander of the Revolutionary Guard's Qods Force, 
General Qassam Soleimani, proposed unifying many of the various 
proxy forces and creating a 150,000-man army for operations in 
Syria. These units have operated under the command of Iran's 
Islamic Revolutionary Guard Corps. Many were active in the 
battle for Aleppo and now in Deraa, in southern Syria, right 
next to the Golan Heights.
    Iran's military goal is to create a land corridor from Iran 
itself across Iraq and Syria to the Mediterranean, which will 
help it unify its various fronts and establish its hegemony 
over the Middle East. It will aid Iran to advance the 
encirclement of Jordan and Saudi Arabia. It will also provide 
it with an assured line of supply to Syria and to Lebanon as 
its military presence grows. Locally Iran seeks to link 
southern Lebanon and the Golan Heights.
    But there could be other objectives as well for Soleimani's 
army. Recently Hossein Salami, the deputy commander of Iran's 
Revolutionary Guard Corps, declared that the Islamic army in 
Syria now operating in the Golan Heights, was awaiting orders 
to eradicate--let me repeat that--eradicate the evil regime of 
Israel. He used the Farsi word, Mahv, meaning annihilation or 
to make extinct. He added that the Zionist regime has no 
strategic defensive depth, hence this goal was achievable. Even 
if this statement was motivated by the need for rhetorical 
flourish, it nonetheless demonstrates the general intent of 
Iran to use the Golan region for offensive operations against 
Israel. It would be folly for the state of Israel in any case 
to ignore statements of this sort by Tehran, especially when 
they are backed by concrete actions.
    I am now reaching my conclusions.
    Israel today is under assault by a self-declared Iranian-
led axis of resistance, which has been operating under Russian 
protection. As the Syrian state recovers from the Syrian civil 
war, its allies can be expected to make demands on its behalf 
like the return of the Golan Heights to Syria. In fact, these 
demands have already been voiced.
    The strongest rebuttal to this effort would be the 
recognition of Israeli sovereignty over the Golan Heights. This 
would demonstrate conclusively that those who use force to 
threaten their neighbors will not benefit in the court of 
international diplomacy. States today have a choice. They can 
back the demands of Iran and its supporters, or they can 
recognize the rights of Israel in the Golan Heights. U.S. 
recognition of Israeli sovereignty would set an important 
example for others.
    Three United States administrations consistently in written 
letters of assurance to Israel confirmed that they envisaged at 
the end of the day, Israel must remain on the Golan Heights. 
That core bipartisan principle of past U.S. policy cannot be 
realized in the long term without Israeli sovereignty over the 
Golan confirmed.
    [Prepared statement of Ambassador Gold follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. DeSantis. Thank you. Well, your written statement will 
do it. We are over here.
    So let me get on to Professor Kontorovich for 5 minutes.

                STATEMENT OF EUGENE KONTOROVICH

    Mr. Kontorovich. Chairman DeSantis, Ranking Member Lynch, 
honorable members of the committee, I am honored to speak here 
with you today about the question of American recognition of 
Israeli sovereignty over the Golan, an issue which I have 
examined in some detail in my academic work.
    Foreign policy tries to be reality-based, and it is tries 
to be interest-based. For the past 50 years, the clear reality 
has been Israeli sovereignty over the Golan Heights, and 
everybody agrees that the Israeli presence there is certainly 
in U.S. interests and Israeli interests. Nobody is calling for 
an Israeli withdrawal in the present circumstances--nobody in 
U.S. policy circles.
    So the question is why not recognize and give status, give 
legal status, to the happy status quo. Why not recognize 
Israeli sovereignty? It is generally not the U.S. practice to 
not recognize the claimed sovereign borders of countries with 
whom it has diplomatic relations.
    The principal rationale for not recognizing Israeli 
sovereignty over the Golan Heights is a legal one. It is the 
claim that Israel's acquisition of the Golan was illegal, and 
thus, the U.S. cannot recognize it even if it is, indeed, happy 
with the status quo as a policy matter. That legal argument is 
inaccurate as I will now describe.
    The centerpiece of the argument is the axiom that territory 
cannot be acquired by force. And that is a broad stroke 
description of a legal rule, which is generally accurate but 
lacks important nuance and detail which applies to the present 
case.
    The basic prohibition on the acquisition of territory by 
force is a fairly new one. It comes from the U.N. Charter. The 
U.N. Charter, of course, bans the aggressive use of force as an 
instrument of state policy. Article 2-4 bans aggression.
    As a corollary, it is easy to infer that if you are not 
allowed to attack your neighbors aggressively, you are not 
allowed to keep what you seize in a war of aggression. That is 
because the underlying war is illegal. So if you do something 
illegal, you cannot keep the poison fruits.
    But not all war is illegal. The U.N. Charter also makes 
clear that just as aggression is fundamentally illegal, self-
defense is fundamentally legal and an inherent right of 
nations. If the underlying war is legal, there is no reason to 
infer the corollary that territorial change resulting from such 
war would be illegal. Thus, in a defensive war, acquisition of 
force may well be legal.
    Now, let us examine what the status of this principle was 
in 1967 because we need not ask what is the status of the 
legality of defensive conquests today because we need to ask 
what was the status in 1967 when the relevant events occurred. 
And it is very easy to find out what the status of this rule 
was in 1967. You go and see what people were saying about it in 
1967 and before 1967.
    First of all, it is important to note state practice under 
the U.N. Charter. After the passage of the U.N. Charter, it was 
not the case that the countries that joined the charter said 
defensive conquest is out the window. Indeed, most countries 
that were part of the victorious allied cause redrew their 
borders to the detriment of the defeated Axis powers after the 
adoption of the U.N. Charter. Countries like Holland, France, 
Russia, Greece all acquired territory from their defeated 
neighbors in the 1940s as a result of World War II. They were 
well aware that this would raise a question of what the legal 
basis was, and in discussions at the U.N., the answer was quite 
clear. Those territorial changes are not precluded by the U.N. 
Charter because the underlying war was legal and defensive on 
the part of the allies.
    This continued into the 1950s. Today the Republic of Korea, 
South Korea, controls territory north of the 38th parallel. 
Prior to the Korean War, the territory under South Korean 
control was entirely south of the 38th parallel, and as a 
result of its victory in the defense of the Korean War, it took 
some territory north of the 38th parallel, which the U.S. 
treats for all purposes a sovereign Korean territory. Certainly 
we would not wish to suggest the existence of a rule that would 
require the U.S. to reconsider the sovereign status of 
territory on the Korean Peninsula currently regarded as 
belonging to the Republic of North Korea and transfer it 
somehow to the north.
    Similarly, the views of academics, leading jurists and the 
United Nations experts itself before 1967 clearly reflected the 
allowance of a conquest in a defensive war. This issue was 
discussed in some detail by the United Nations International 
Law Committee, which was created by the United Nations to 
formulate a more precise legal draft describing what the U.N. 
Charter requires in some detail. The document they came up with 
specifically addressed the question of territorial change and 
made clear that territorial change in war is only illegal when 
the war is itself--when the conduct of the hostilities is in 
violation of the U.N. Charter. And of course, the U.N. Charter 
recognizes the inherent right of self-defense.
    Similarly, scholars before 1967 ----
    Mr. DeSantis. Can we just wrap it up because I just want to 
get everyone in. We got members here that want to ask 
questions.
    Mr. Kontorovich. Scholars recognized that there was no 
prohibition against defensive conquest and resolution 242 did 
not require Israel to withdraw from all territories, again 
recognizing this principle.
    Members of the committee, chairman, honorable ranking 
member, thank you for your time.
    [Prepared statement of Mr. Kontorovich follows:]

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    Mr. DeSantis. Thank you.
    Ambassador, you are up.

             STATEMENT OF AMBASSADOR DANIEL KURTZER

    Ambassador Kurtzer. Chairman DeSantis, Ranking Member 
Lynch, members of the subcommittee, thank you for the 
opportunity to join you today.
    Drawing on 3 decades of experience in the United States 
Foreign Service, including 4 years serving in Israel during the 
1980s in the Reagan administration and then 4 more years as 
President George W. Bush's Ambassador to Israel, my analysis 
and recommendation on this issue is rooted in two questions. 
First, is there a compelling American interest that would be 
advanced by recognizing Israeli sovereignty over the Golan 
Heights? Second, would recognition of Israeli sovereignty 
materially enhance Israeli security?
    Let me start with the bottom line. The answer to both 
questions I believe is no. I believe that our national security 
interests counsel in favor of maintaining our existing policy 
with respect to Israel, Syria, and the Golan Heights. That 
policy includes strong and determined support for Israel's 
serious and legitimate security concerns, support for Israel's 
humanitarian assistance to victims of the conflict in Syria, 
and maintenance of the status quo with respect to the status of 
the Golan Heights themselves.
    The threats to Israel from Syria are real. Since the start 
of the civil war in 2011, the Syrian regime and its allies, 
Iran, Iranian proxies, and Hezbollah have threatened Israel's 
security from across the Separation of Forces line that was 
agreed between Israel and Syria in 1974.
    In the face of these threats, Israel's policy has been 
retrained and nuanced. Israel has made clear that it has no 
interest to interfere in Syria's internal struggles. Israel has 
made equally clear that it would act as necessary to safeguard 
its security in response to threats emanating from Syrian 
territory. Both elements of this Israeli policy were reiterated 
last week by Prime Minister Netanyahu before and during his 
visit to Moscow.
    The United States has wisely supported Israel's actions to 
defend itself, including the interdiction of Iranian arms 
shipments to Hezbollah via Syria, attacks targeting Iranian 
arms depots and installations, and disruption of efforts by 
Iran and its proxies to establish a permanent military presence 
in Syria. None of these essential actions by Israel would be 
enhanced by U.S. recognition of Israeli sovereignty over the 
Golan Heights.
    Israel's current policy and actions, in fact, have garnered 
wide understanding and support. Changing the subject now to 
Golan's legal status would change the discourse in the region, 
including among Arab states that are drawing closer to Israel 
in the face of common threats to their own security. Indeed, a 
change in U.S. policy would put the focus on this issue instead 
of where it belongs, on the murderous actions of the Syrian 
regime and the support provided to Syria by Iran and Russia.
    As we all know, the issue of Golan's sovereignty is nowhere 
near the top of the Middle East's overburdened agenda. What 
sense, therefore, does it make to focus on this issue now?
    It is also important to recall that Prime Ministers Rabin, 
Peres, Netanyahu, Barak, and Olmert have all conducted open or 
secret peace talks with Syria in the past that included the 
status of Golan as one of the central agenda items. 
Notwithstanding Israel's 1981 legislation that extended Israeli 
law, jurisdiction, and administration to the Golan Heights, 
Prime Minister Rabin's policy articulated in 1993 has de facto 
been adopted by all of these prime ministers since then; that 
is, Israeli willingness to meet Syria's requirements on 
territory if Syria were ready to meet Israel's requirements on 
security, water, and the nature of peace. To be sure, I do not 
advocate the resumption of peace talks now and surely do not 
advocate any change in the status quo on Golan. But it also 
makes no sense to introduce the sovereignty issue now in the 
midst of the volatile situation in Syria.
    Since 1967, the United States has considered Golan to be 
occupied territory covered by the provisions of the United 
Nations Security Council resolution 242. And the United States 
has also been sensitive to Israel's legitimate security needs 
as reflected in the 1975 letter sent by President Gerald Ford 
to Prime Minister Rabin and reiterated later by subsequent 
administrations.
    Finally, the United States has a fundamental longstanding 
interest in supporting the territorial integrity of states, 
even those we do not like. Syria has a very long way to go 
before it can reconstruct its politics, society, and economy 
and take its place among the civilized nations of the world. 
But the Syrian case does not offer a justification for changing 
American policy on this crucial principle.
    I will close by emphasizing again that the United States 
must continue to support Israel's security actions designed to 
protect its citizens from attacks emanating from Syria, and the 
United States must work with Israel and others to ensure that 
Iran, Iranian proxies, and Hezbollah do not establish military 
bases in Syria from which to threaten Israel. These are the 
challenges for the United States policy and for Israel on which 
we should be working together and with others.
    Thank you.
    [Prepared statement of Ambassador Kurtzer follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. DeSantis. Thank you.
    Mort Klein, you are up for 5 minutes.

                   STATEMENT OF MORTON KLEIN

    Mr. Klein. Yes. Chairman DeSantis, Ranking Member Lynch, 
members of the committee, thank you for holding this hearing.
    First, I simply wanted to say that Rabin also promoted the 
Oslo Agreements, which turned out to be a disaster. Sharon 
promoted the Gaza withdrawal, which turned out to be a 
disaster. And now these and other top experts understand that 
giving away any part of Syria will not work, that the Arabs are 
not in any way interested in peace. The polls show 
overwhelmingly 5 to 1 the Israelis oppose giving up the Golan.
    I am going to emphasize three quick areas: security, 
historic and legal.
    Israeli control over the western two-thirds of the Golan is 
a key bulwark against radical regimes and affiliates that 
threaten the security and stability of the U.S., Israel, the 
entire Middle East and beyond.
    The Golan Heights consists of a strategically located high 
ground, provides Israel with an irreplaceable ability to 
monitor and take countermeasures against growing threats at or 
near the Syrian-Israel border. These growing threats include 
the extremely dangerous hegemonic expansion of the Iranian, 
Syrian, even Russian and North Korean axis, and the presence in 
Syria close to the Israeli border of terrorist groups like the 
Iran Revolutionary Guard's the Qods Forces, Hezbollah, 
Palestinian Islamic Jihad, Syrian forces, and radical Sunni 
Islamist groups as well.
    The Iranian regime is attempting to build an 800-mile land 
bridge to the Mediterranean, running through Iraq and Syria. 
Among other things, this would enable Iran to obtain naval 
ports far from Iran's mainland that enhance Iran's ability to 
deliver advanced weaponry and support to Hezbollah and Iran's 
other proxies that wreak terror throughout the world. This 
major strategic threat makes it more important than ever to 
shore up Israel's position in the Golan.
    Several times during the recent past, Israel has 
intercepted drones launched and controlled from Syria with the 
assistance of Iranian Qods Forces. In February, surface-to-air 
missiles in Syria shot down an Israeli F-16 fighter jet. Such 
alarming recent incidents confirm the presence of the Iranian 
front in Syria and vividly demonstrate the necessity for 
assuring Israeli sovereignty over the Golan.
    America's moderate Sunni Arab allies would very likely be 
pleased by the U.S. recognition of the Israeli sovereignty in 
the Golan in that this would help stem Iranian aggression and 
the very same terrorist actors confronting our moderate Arab 
allies. Indeed, this very past May, after the Iranian Qods 
Force launched 20 rockets from Syria into Israel and the 
Israeli Air Force responded by striking dozens of military 
targets in Syria that belonged to Iran's Qods Force, the Arab 
Islamic country of Bahrain issued a public statement supporting 
Israel's right to defend herself by destroying the sources of 
danger, and Bahrain criticized Iran for using its missiles to 
destabilize the region.
    The necessity for recognizing Israel's retention of the 
Golan was dramatically demonstrated during the 1973 Yom Kippur 
War. Israel's presence on the Golan provided Israel with the 
strategic depth that enabled forces to assemble and push back 
Syria's initially effective surprise invasion. Without the 
Golan, Syrian forces could have overrun Israel in a nightmare 
scenario. And today, with even more sophisticated weaponry that 
are held by these groups, it is even more important that Israel 
can never give away the Golan.
    Because Israel is our front line in the war to defeat 
radical Islamist terror, it is surely in America's self-
interest to ensure that Israel maintains and enhances her 
ability to defend herself and defeat these anti-American, anti-
West terrorists.
    In sum, bolstering Israel's sovereignty of the Golan by 
conferring formal U.S. recognition serves U.S. national 
security interests. Therefore, it is eminently sensible to 
agree to Prime Minister Netanyahu's and Vice President Pence's 
urging U.S. recognition of Israeli sovereignty over the Golan.
    It also would send a message to Syria and the Palestinian 
Authority and the Arab world the jig is up. If you do not 
change your behavior, if you do not stop terrorism, if you 
refuse to negotiate, you will be held accountable, and you will 
lose all support for your demands.
    There are, moreover, no possible security arrangements that 
can substitute the topographical advantages, early warning 
stations, locations, and strategic depth provided by Israel's 
retention of the Golan. Israel will lose four of its five early 
warning stations if it gives up the Golan.
    Moreover, it is the right thing to do. Israel has the 
strongest ancient and modern historical claims evidenced by 
numerous archaeological finds including dozens of ancient 
Jewish synagogues in the Golan, villages and towns in the Golan 
Heights. They found Israeli Jewish coins in the Golan. And in 
fact, even for those who believe in the Bible, it was promised 
to Abraham in the Bible. The Golan Heights was promised in 
Deuteronomy 4:43.
    Israel also has a legal right to the Golan, stemming from 
the Golan's inclusion in the 1922 League of Nations Mandate, 
agreed to by the U.S. in an internationally binding treaty. 
This mandate required Britain to hold the area in trust for the 
reestablishment of the Jewish homeland, but Britain unlawfully 
traded the Golan to the French for rights to the Iraqi oil 
fields.
    I have here a picture. It is very important--of the 1920 
Balfour Declaration that includes the Golan to be part of 
Israel. Even after they gave up 80 percent of Palestine, Golan 
Heights in the 1922 decision was still part of Israel.
    U.S. recognition of Israel's sovereignty over the Golan 
would implement a U.S. treat obligation that has been U.S. law 
for 93 years, and it would help rectify Britain's 95-year 
wrong.
    During the 21 years when Syria controlled the Golan, there 
was no peace. Israel protects the lives and religious rights 
and sites of all in the Golan. Moreover, its field hospitals, 
humanitarian assistance to Syrian victims shows how important 
it is. Plus, it would be a humanitarian nightmare to move 
30,000 Jews and 20,000 Druze out of the Golan.
    [Prepared statement of Mr. Klein follows:]
  
  
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    Mr. DeSantis. Mort, you are out of time. I want to get to 
questions. I know we are going to have a lot for all you guys. 
So let me now recognize myself for 5 minutes.
    Dr. Doran, you do think that U.S. recognition of the Golan 
would further U.S. national security interests. Correct?
    Mr. Doran. Yes, absolutely.
    Mr. DeSantis. Why?
    Mr. Doran. Because it promotes stability in the region, and 
it is a buffer against all of the malignant forces, whether it 
is Iranian or Sunni jihadi forces or simply the forces of the 
Assad regime that seek to overturn the American order in the 
region and to upset our allies, including Jordan.
    Mr. DeSantis. And if the administration were to do that, it 
would certainly be a way to push back against terrorism, Iran, 
Assad, and Russia. Correct?
    Mr. Doran. Absolutely. It would send a message to all of 
our allies that we are serious about defending the order that 
is under threat. And we would be doing a favor to--our allies 
may feel compelled to protest. I disagree with Ambassador 
Kurtzer. I do not think we will change the agenda. The major 
agenda item in the region is the growth of the Iranian-Russian 
alliance and its effort to overturn the existing order. I think 
we will have a day of protest about the Golan, and then it will 
be forgotten.
    Mr. DeSantis. Ambassador Gold, would this be in Israel's 
national security interest to have U.S. recognition of the 
Golan?
    Ambassador Gold. I believe U.S. recognition of Israel's 
sovereignty on the Golan would unquestionably be in Israel's 
security interest. Look, everyone talks about Israeli forces 
staying on the Golan Heights. That is in the famous Ford letter 
from 1975, repeated again by James Baker's letter before 
Madrid, repeated again by Warren Christopher's letter to 
Israel. So that concept is a bipartisan concept.
    Now, let us use our minds for a minute. How do you keep 
Israeli forces on the Golan Heights if people think it is 
Syrian sovereign territory? I do not think a seminar at Harvard 
Law School could figure this one out.
    Mr. DeSantis. That actually may be the last place you would 
want to figure it out.
    [Laughter.]
    Mr. DeSantis. That is neither here nor there. I speak from 
experience.
    Ambassador Gold. What I am saying is the best way to 
assure----
    Mr. Lynch. As a Harvard guy, I want to object to that.
    Ambassador Gold. The best way to assure that is to do the 
logical thing and assure Israeli sovereignty, and that will 
protect the Israeli military presence that almost everybody 
agrees must be continued, particularly when you are at the end 
of a war in Syria where a number of countries are now going to 
come and say, okay, how do we create a new order in Syria? We 
get rid of the Israelis in the Golan. Prevent it. Establish 
Israeli sovereignty.
    Mr. DeSantis. Professor, if people disagree with your 
analysis, is that not basically saying that you can commit acts 
of aggression and not really pay a price for it?
    Mr. Kontorovich. Quite the opposite.
    Mr. DeSantis. Well, no. The people who disagree with you 
are saying that countries can commit acts of aggression and not 
end up paying a price for it. Right?
    Mr. Kontorovich. That is exactly right. The notion of the 
defensive conquest would be prohibited, for example, that 
Israel's control of the Golan is only temporary is, in effect, 
an insurance policy for aggressors because they know if they 
attack a neighboring country, maybe they will succeed and at 
least they will break even. Even if a country is properly 
occupying territory of an aggressor, they have to give it back 
at some point. And what that does is it incentivizes not just 
aggression but also a failure to make peace because a regime 
like Damascus will know that they will not lose territory by 
attacking, and even 50 years of failure to make peace, they 
could still get the territory back.
    Mr. DeSantis. Mr. Klein, you were here when we did our 
embassy investigation at a hearing last year, and a lot of 
people were saying, oh, you know, it is just not the right 
time. You cannot do it. But that was a very successful decision 
and successful move. I think most of us look at that now.
    Do we not have a lot of momentum right now to continue 
leading, have the U.S. administration lead on some of these 
issues and make a lot of progress? So to me, now is the perfect 
time to do this.
    Mr. Klein. Yes. Also, it was predicted that the Palestinian 
Authority would have a range terrorist attacks which never 
developed. I think because America is showing their strength, 
now you see in Iran demonstrations condemning Palestine. There 
is no such country, but the Palestinian Authority. So this is 
really a time to continue and send a message that the jig is 
up. You will not permit to be supporting your demands that are 
not only erroneous but not support your demands when you 
continue to promote terrorism, you continue to refuse to 
negotiate with Israel. And I think this will be yet a further 
step in that realm where the Arab will get a very powerful 
message supported by the moderate Arab countries, I believe 
Saudi Arabia, Bahrain, and UAE.
    Mr. DeSantis. Thank you. My time has expired.
    I now recognize the ranking member, Mr. Lynch, for 5 
minutes.
    Mr. Lynch. Thank you very much, Mr. Chairman.
    Thank you all again.
    Ambassador Kurtzer, let me rephrase or let me repeat 
Professor Kontorovich's question. No one is calling for Israeli 
withdrawal from the Golan. Why not support the happy status 
quo?
    Ambassador Kurtzer. Congressman, that is exactly right, and 
that has exactly been American policy since 1967. In 1975, when 
President Ford did send a letter to Prime Minister Rabin, which 
was reiterated later on, it recognized Israel's very 
significant security interests. And what that letter said was 
that at the time when Israel and Syria would try to reach an 
agreement on the status of the Golan Heights, the United States 
would give great weight to Israel's position of remaining. It 
did not declare support for sovereignty because that would be 
denying the two parties the ability to make their own sovereign 
choices. So we had a smart policy in 1975, and that policy has 
continued until today.
    The key issue--and I go to the chairman's first question to 
Dr. Doran--is how does this serve American national interests. 
And the answer is it does not because it would, in fact, change 
the discourse from focusing on Israeli security to focusing on 
this question when it needs not to happen now.
    Mr. Lynch. Right.
    I had an opportunity several times to visit the Golan, 
going back to my days in the State Senate in Massachusetts. I 
do recall having dinner with a family in Tiberius, and the 
Golan is looming over that entire city or town. So there is a 
palpable need for security in that area.
    And the letters from Gerald Ford and I think it was Warren 
Christopher and others have repeated this narrative that the 
Golan is necessary--Israeli forces in the Golan are necessary 
to Israel's security because of the actions that have taken 
place there. And it is real. It is necessary. It is important.
    My worry is that instead of the happy status quo where the 
Golan and areas there that are vulnerable and protected, we 
change the narrative away from one of Israeli defense to one 
where we are overreaching--the United States. And in the 
circumstances that we have right now--I mean, the reports this 
morning. We have got, they are saying, hundreds of thousands of 
people fleeing the conflict between the rebels and the forces 
of Bashar al Assad and Iranian militia and Russian air cover--
are fleeing into the area next to the Golan.
    Do we want to change that narrative? Do we want to change 
the one of supporting Israel's right to defend itself to one 
where the talk is Israel's annexing the Golan in violation of 
the previous agreement that has been in place since 1974 at 
least, if not, 1967? Do we want to change that narrative?
    Ambassador Kurtzer. Congressman Lynch, I think you are 
exactly right. The issue now is one of garnering support 
internationally through our diplomacy through our work in 
various fora, support for Israel's security requirements. And 
that is becoming more successful as many in the Arab world see 
a common threat emanating from Iran. You would not find Arab 
support for the recognition of Israeli sovereignty in Golan. 
And if the subcommittee wants to test that proposition, invite 
the Ambassador of Bahrain, the Ambassador of Saudi Arabia and 
Egypt ----
    Mr. Lynch. Jordan.
    Ambassador Kurtzer.--to a hearing and ask them to declare 
publicly that they think it would be a good idea. If they say 
it is, then I would be happy to tell the subcommittee that I am 
wrong. I do not think they are going to make that statement 
publicly.
    Mr. Lynch. The other aspect of--and I have great respect 
for the professor. This idea that military conquest transfers 
the rights to ownership. That means that whoever wins the last 
war has the right, the legitimate right, for that territory. 
Especially in the Middle East, that is a dangerous, dangerous 
proposition, and it is one that I do not think following that 
policy leads to a safe and secure and a peaceful Middle East or 
a safe and secure Israel either.
    My time has expired, Mr. Chairman. I yield back.
    Mr. DeSantis. Do you want to respond?
    Ambassador Kurtzer. Just one comment.
    Mr. DeSantis. Let us give the professor just a quick--be 
short, and then I am going to recognize Mr. Hice.
    Mr. Kontorovich. Mr. Lynch, a quick clarification of the 
position being outlined here. It is not that territory can be 
taken in any war or even in most wars. It is that when a 
country that is itself attacked in the exercise of its self-
defense changes the frontiers. Now, we recognize that self-
defense is legal. So we need to make that judgment. We believe 
we can make that judgment, that we can tell Crimea apart from 
the Golan. And if we cannot tell aggression from defense, if it 
all looks the same, then the entire basis of the U.N. Charter 
security system is undermined.
    Mr. Lynch. Right, and I totally respect that. But even in 
today's testimony, we have gone back to the Bible. So every 
nation in the Middle East at some point can claim that they 
were the victim of aggression. Do you see where that leads, 
especially in this area? We go back to the Books of 
Deuteronomy, you know, the right of possession of the Golan, as 
presented to Abraham. It is never-ending if you apply that rule 
in this region because of the history. That is all.
    And I totally respect your scholarship and your willingness 
to come here and help us with our work. Thank you.
    Mr. DeSantis. The gentleman yields back.
    The chair notes the presence of the gentleman from 
Wisconsin, Mr. Grothman, a member of the full committee. We 
thank you for your interest in this topic. And without 
objection, we welcome him to participate fully in today's 
hearing. Seeing no objection, it is so ordered.
    And the chair also notes the presence of Congressman Perry 
of Pennsylvania. We appreciate your interest in this topic and 
welcome your participation. I ask unanimous consent that 
Congressman Perry be permitted to fully participate in today's 
hearing. Without objection, it is so ordered.
    The same with Mr. Lamborn. I would like the same unanimous 
consent. Without objection, it is so ordered.
    And the chair will now recognize Mr. Hice for 5 minutes.
    Mr. Hice. Thank you, Mr. Chairman.
    Ambassador Gold, how important was President Trump's 
decision to move the embassy in Israel to Jerusalem?
    Ambassador Gold. While that is not the subject today 
formally, it was extremely important and extremely appreciated 
by the vast majority of the people of Israel.
    Mr. Hice. And we were told that it would create all sorts 
of havoc in the region, and it did not do so. It seems to me 
that the same basic principles apply here as we are discussing 
Golan. So I think the point of that move being very positive in 
every way without creating the fear and the turmoil that was 
expected by some is a valid point for what we are doing now.
    Now we have Assad's regime. A campaign in southern Syria 
obviously threatening Israel's sovereignty. What are the 
implications of that?
    Ambassador Gold. Well, again, the current campaign, which 
Assad's people say is to recover Syrian territory from ISIS, is 
really part of a much wider effort of the Iranian axis, which 
they call themselves the Axis of Resistance, to establish this 
land bridge across the Middle East which will enshrine Iranian 
hegemony in the region. That should be our point of departure.
    You know, if some Arab states are not willing to come to 
this committee and extol the idea of Israeli sovereignty over 
the Golan Heights, it is because our diplomatic work--and I was 
involved in Golan negotiations for the state of Israel. I was 
involved in contacts with the Arab states. You can reach 
agreements quietly but not publicly on a lot of sensitive 
issues. I do not believe that suddenly Bahrain or Saudi Arabia 
or Kuwait or the UAE would downgrade their relations with the 
United States because the United States recognized the Golan 
Heights as Israeli sovereign territory. To the contrary, you 
would be serving the interests of the anti-Iranian group among 
the Middle Eastern states.
    Mr. Lynch. Exactly. And that is why we have a role of 
leadership in this whole question.
    So how would the question of Golan sovereignty factor into 
what currently Syria is doing?
    Ambassador Gold. Well, there would no longer be a question 
mark about the Golan Heights, that if the Syrians could launch 
a surprise attack and seize some territory, they could move a 
diplomatic process that allows them to take Golan territory at 
the end of the day. That would be defeated. It would be clear 
that the United States is on the side of Israel staying on the 
Golan Heights permanently. And I think it would deter 
aggression rather than stimulate it.
    Mr. Hice. I agree with you.
    Dr. Doran, let me go to you now with a similar but expanded 
question. What impact would U.S. recognition of Israeli 
sovereignty over the Golan Heights have pertaining specifically 
to Russia and Iran?
    Mr. Doran. It would send a message to all parties, 
including the Russians and the Iranians, about what the United 
States expects the new Syria to look like. The Russians and the 
Iranians are working hard to create a Syria that is going to be 
a Russian and Iranian base of operations in the whole region. 
And this is one way that we can very powerfully say to them and 
to the Syrians that we do not accept that and that we have a 
different vision of the new Syria. And it would also condition 
our talks with the Syrian people and the Syrian governments in 
the future.
    It was noted that the previous Israeli prime ministers sat 
down with the Syrian representatives and entertained the 
possibility of returning to the 4 June 1967 line. Those talks 
were not simply bilateral Israeli-Syrian talks. Those were 
talks by the Syrians with the Israelis very much with the 
intention of influencing Washington. And so Washington would be 
sending a message to the Syrians that if you want--to the 
future Syrian governments, if you want good relations with the 
United States, and you want to sit down comfortably with the 
American-led order, it means accepting the Golan as part of 
Israel. And we would strengthen the Israeli governments, we 
would strengthen the backbone of Israeli governments, and we 
would take off of the agenda the possibility of rolling back 
Israel.
    Mr. Hice. Thank you very much.
    I yield back, Mr. Chairman.
    Mr. DeSantis. The gentleman yields back.
    The chair now recognizes the gentleman from Wisconsin for 5 
minutes.
    Mr. Grothman. A few questions.
    Just doing a little bit of a check here, it looks like the 
Golan Heights would be the equivalent of 24 square miles. I 
mean 24 miles by 24 miles. I should say about 500 square miles.
    How many people live in that area right now? Does anyone 
know?
    Mr. Klein. About 50,000.
    Mr. Grothman. 50,000 people?
    And who lives there, if you had to describe them 
ethnically?
    Mr. Klein. It is 30,000 Jews and 20,000 Druze.
    Mr. Grothman. No traditional Arabs or ----
    Mr. Klein. Virtually none.
    Mr. Grothman. Could you describe the economy of the Golan 
Heights?
    Mr. Kontorovich. It is overwhelmingly based on tourism. 
There is also agriculture, and now there are some clean energy 
industries being explored.
    Mr. Grothman. Could you describe the economy today compared 
to the economy 50 years ago?
    Mr. Kontorovich. The economy is vastly more developed. It 
is accessible to tourists. All of the infrastructure in the 
area has been done by Israel since 1967.
    Mr. Grothman. Could you compare the economy of the Israeli 
occupied Golan Heights to the Golan Heights immediately 
adjacent to it ----
    Mr. Kontorovich. The Syrian Golan Heights is now 
principally a battleground between different rebel groups and 
themselves and between rebel groups and Assad. It is a desolate 
wasteland.
    Mr. Grothman. I would say could you describe the quality of 
agriculture on the area controlled by Israel compared to the 
area controlled by Syria?
    Mr. Kontorovich. The Israeli side produces internationally 
recognized, very fine wines. It is also the major source of 
Israeli beefstock.
    Mr. Grothman. Does it look a lot greener on the Israeli 
side?
    Mr. Kontorovich. It is a lot greener and it is quite 
beautiful.
    Mr. Grothman. Why is that?
    Mr. Kontorovich. Because of the quality of the agriculture, 
the quality of the irrigation, and the lack of a prolonged 
ethnic cleansing process.
    Mr. Grothman. The people who previously were--obviously, 
Syria is a problem. They are made up of a lot of ethnic groups 
that do not get along. The people who have left the Golan--how 
would you describe their ethnicity?
    Mr. Kontorovich. The Druze on the Golan?
    Mr. Grothman. The ones who left.
    Mr. Kontorovich. So very few Druze left during the war. The 
1968 war ended too fast for anyone to run away.
    Mr. Grothman. Did any people leave the Golan ----
    Mr. Kontorovich. No. It was not a source of refugees.
    Mr. Grothman. Okay. So the same people are living there now 
who basically lived there 50 years ago.
    Mr. Kontorovich. That is exactly right.
    Mr. Grothman. Is there anything that could be done kind of 
short of full recognition that would be a step in that 
direction?
    Mr. Kontorovich. Several steps could be taken. Encouraging 
congressional delegations to visit is a simple step. Putting in 
the foreign aid budget for Israel an explicit permission for 
Israel to use money appropriated to it for defense and other 
purposes in the Golan Heights. Encouraging the creation of 
joint defense and research projects in the Golan Heights. And 
modifying the U.S.-Israel joint science research agreements to 
explicitly allow the use of funds for research on agriculture 
and clean energy in the Golan Heights.
    Mr. Grothman. It seems to me a lot of anti-Israeli feeling 
in this country is focused on this boycott-divest sanctions 
effort. How does this effort use the Golan Heights?
    Mr. Kontorovich. The Golan Heights is completely subject to 
efforts of economic warfare against Israel. While the BDS 
movement claims that their goal is Palestinian self-
determination, the boycott aspect is applied 100 percent to the 
Golan where there is no question of Palestinian self-
determination. Crucially United Nations resolutions that seek 
to promote economic strangleholds on Israeli territories apply 
to the Golan. EU labeling policies apply to the Golan. And 
there is no distinction made even though there is no claim of 
self-determination or a right to statehood in this area.
    Mr. Grothman. Anybody else could jump in too. Anybody 
trying to leave--you said we have 30,000 Israeli Jews in there 
and 20,000 Druze. Is that right? Is anybody trying to leave? Is 
anybody unhappy that Israel is running it right now?
    Mr. Doran. No, they are not unhappy. You only need to look 
at what is going on in Syria and see that they do not want to 
trade their status in Israel for Syrian citizenship.
    Mr. Grothman. Or Jordan or Lebanon?
    Mr. Doran. Or Jordan or Lebanon. But they have kept their 
Syrian citizenship if they want to. Younger people are 
accepting Israeli citizenship, which is on offer.
    But those who have not accepted Israeli citizenship are not 
doing it because they necessarily prefer Syrian citizenship. 
They have done it because there is a question mark over the 
status of the Golan and it might go back to Assad. And if they 
choose Israeli citizenship over Syrian citizenship and it goes 
back to Assad, then they and their families fear retribution.
    Mr. Grothman. I guess I have used my 5 minutes. Thank you 
very much.
    Mr. DeSantis. The gentleman's time has expired.
    The chair now recognizes the gentleman from Colorado for 5 
minutes.
    Mr. Lamborn. Thank you, Mr. Chairman. Thank you for having 
this hearing. It is an issue that I have been very interested 
in for a long time. So this is a very timely and important 
issue. In fact, in the last Congress, I introduced House 
resolution 768 expressing the sense of the House that it is in 
the U.S. national security interest for Israel to maintain 
control of the Golan Heights.
    So this has been great testimony that you have all 
provided. I appreciate that. But I do want to focus in more 
than we have so far on Iran and Iran's designs. We have talked 
a little bit about the land bridge, and that has been helpful.
    Has the status quo changed? Ambassador Kurtzer, you 
mentioned the status quo. For 50-some years, Israel has been 
maintaining a status quo, you say, and a happy status quo. I 
have heard that phrase. But have things not changed, Ambassador 
Gold or Dr. Doran, with Iran's involvement in the Syrian civil 
war, Iran's stated intentions to find ways to annihilate 
Israel? Not that that language has changed, but their ability 
to do so or harm Israel at least has changed due to their 
proximity now to the Golan Heights and their involvement in 
Golan Heights, their involvement in Lebanon.
    So for the two of you, could you comment on whether the 
status quo has changed to the point where the U.S. policy 
should change?
    Ambassador Gold. Well, one issue which I did raise is 
Iranian planning. The fact of the matter is that the Iranians 
are planning on building a very large army. Now, these Shiite 
militias are trained and equipped by Iran and deployed in 
Syria. The goal, according to General Soleimani himself, is to 
get to 150,000 men.
    Now, remember, Israel does not keep the whole Israeli army 
on the Golan Heights. It has a small blocking force. The number 
of soldiers it puts there is classified. But after 48 hours, we 
get to full mobilization. Then we can withstand an attack.
    Now, if there is a massive Iranian force in the next 5 to 6 
years that develops in Syria that plans to attack Israel, 
Israel's dependence on the Golan Heights and the initial 
terrain conditions that the Golan presents to Israel will 
become more vital.
    One of the witnesses who was supposed to appear here was 
General Giora Eiland, and he was the mastermind and the 
architect ----
    Mr. Lamborn. If you could summarize because I am running 
out of time.
    Ambassador Gold. Okay. Well, I am just saying there is no 
alternative to Israeli military presence on the Golan Heights 
enshrined, protected diplomatically by Israeli sovereignty.
    Mr. Lamborn. And by U.S. recognition of that sovereignty?
    Ambassador Gold. And U.S. recognition of that sovereignty. 
That would be the strongest defense of Israel in the 
international community.
    Mr. Lamborn. And, Dr. Doran, if you could answer that but 
throw in the following thought. Have relations between Israel 
and the neighboring friendly Arab states given Iran's threats 
that have united this sort of ad hoc coalition--has that 
changed the status quo as well?
    Mr. Doran. It has totally changed the status quo.
    There, I think, three major factors at work here that make 
the map of the Middle East today totally different than when 
U.N. resolution 242 was issued. One is the rise of the 
Iranians. The second is the question mark about American power. 
The United States has downgraded the Middle East somewhat in 
its foreign policy, and everyone in the region wonders who much 
has it been downgraded. And the third thing is the near 
disintegration of Syria.
    So I leave it to Professor Kontorovich to say whether this 
is a valid legal principle, but I think it should be a 
principle of our policy that the entity that was in Syria when 
U.N. resolution 242 was issued is no longer there. When we are 
negotiating with the Assad regime now, behind it is Iran. 
Behind it is Russia. This is not an entity like Egypt that can 
make a guarantee about the borders of Syria that we can rely on 
in any serious respect. So if we are holding this in escrow for 
this entity to take over, the entity is not there anymore. I do 
not know if that is a legal principle, but it should be a 
policy principle.
    Mr. Lamborn. Thank you, Mr. Chairman.
    Mr. DeSantis. The gentleman yields back.
    The chair now recognizes the gentleman from Vermont for 5 
minutes.
    Mr. Welch. Thank you.
    I want to give Ambassador Kurtzer a chance to respond to 
some of the points that were made. In listening to your 
testimony, as I understood it, Israel does have a secure 
position on the Golan now. There is no suggestion that that be 
taken away, and that there would be, as you saw it, a number of 
collateral consequences to an annexation. I am sorry that I 
missed some of the questioning as I was at another hearing, but 
I would welcome your response to some of the points that were 
made.
    Ambassador Kurtzer. Thank you, Congressman.
    The reality right now is that no one--no one--is seriously 
questioning Israel's control of this territory. We have not 
questioned that control since 1967. And there is a distinction 
then between the issue of sovereignty and the issue of control. 
The United States I think in a bipartisan and very serious way 
has supported Israel's right to defend itself. We need to 
continue to do that. I think some of the things mentioned by 
Professor Kontorovich in terms of ways of enhancing our 
relationship with Israel should definitely be considered by the 
Congress. But that is a far cry from changing the subject to a 
question of sovereignty.
    Today Israel is on the high ground, both literally, 
physically but also diplomatically and morally and, as a result 
of that, it has gained a tremendous amount of support 
internationally, including in the region, for what it is doing 
to counteract malign Iranian influence.
    Why change the subject now to this question, a legal 
question, which is not on anybody's agenda? And it does not 
enhance American foreign policy to be changing the agenda at 
this point.
    Mr. Welch. Now, you mentioned that Israel has significant 
improvement in relations with a number of the Arab states. And 
could you elaborate on your view as to how this would 
complicate that progress?
    Ambassador Kurtzer. Look, right now, most of the improved 
relations between Israel and the states with which it does not 
have a peace treaty are conducted behind the curtain. There is 
intelligence cooperation, strategic cooperation, a great deal 
of political dialogue. Most of these countries would be 
unwilling to come out from behind that curtain in support of a 
claim of sovereignty. They have their own domestic audiences, 
the so-called Arab Street.
    I do not suggest that a recognition of sovereignty would 
bring people into the street. There is not going to be major 
demonstrations or violence, but it would force Arab states to 
take positions against Israel at a time when they are working 
with Israel on Israel's important security interests, as well 
as their own security interests.
    Mr. Welch. One final question. I have always appreciated 
what I thought was the United States' role of trying to be a 
peacemaker and the honest broker. And there are some people who 
see some of the decisions like the unilateral move of the 
capital to Jerusalem, supported by many people here, but not by 
everyone, as compromising the capacity of the U.S. to play that 
role. Do you see any issue related to the U.S. pushing 
sovereignty complicating its role ultimately to be a 
collaborative player in a peace process in the region?
    Ambassador Kurtzer. I think there is no question, 
Congressman. Look, we have seen, with respect to the move of 
the embassy to Jerusalem, how it has complicated the American 
role in the peace process that the President has said he wants 
to resolve. The Palestinians are not talking to us. It is true 
they did not burn down an embassy. They did not riot. But they 
have taken themselves out of the game, and they have said that 
the United States is not an honest broker.
    By the U.S. recognizing Israeli sovereignty over the Golan 
Heights at a moment when it is not part of the discourse, it is 
not part of the diplomacy, would force Arab states also to 
distance themselves from U.S. leadership, which is critical at 
this very difficult period in the region.
    Mr. Welch. Thank you.
    I yield back.
    Mr. DeSantis. The gentleman yields back.
    I want to thank our witnesses again for appearing before us 
today.
    The hearing record will remain open for 2 weeks for any 
member to submit a written opening statement or questions for 
the record.
    And if there is no further business, without objection, the 
subcommittee stands adjourned.
    [Whereupon, at 11:26 a.m., the subcommittee was adjourned.]

                                 [all]


</pre></body></html>
